U.S. Department of the Interior
Office of Inspector General




          SPECIAL REPORT


   EXTERNAL QUALITY CONTROL REVIEW
        OF THE AUDIT DIVISIONS,
    MINERALS MANAGEMENT SERVICE

              REPORT NO. 98-I-398
                  APRIL 1998
                                                                         c-IN-MMS-001-97         -


             United States Department                        of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                               SPECIAL REPORT

Memorandum                         APR -2      m

To:      Associate Director for Royalty Management,
          Minerals Management Service

From:    Robert J. Williams y’ r’“+z 1 LvjLdk
         Acting Inspector General    d

Subject: Special Report on the External Quality Control Review of the Audit Divisions,
         Minerals Management Service (No. 98-I-398)

                                 INTRODUCTION
This report presents the results of our external quality control review of the Audit Divisions
of the Minerals Management Service. The Service requested this review to be in compliance
with the “Government Auditing Standards,” issued by the Comptroller General of the United
States, which requires organizations conducting audits in accordance with these standards to
undergo an external quality control review every 3 years.

This is the second report we are issuing on the Service’s Audit Divisions. The first report
contained the results of our audit of the Minerals Management Service’s work regarding
alleged underpricing of California crude oil. Because the Service’s work on the underpricing
of California crude oil was conducted under different controls, including methodology and
performance procedures, the conclusions in that report do not relate to the Service’s audit
work covered by our external quality control review.

BACKGROUND

The Minerals Management Service is responsible for managing royalties relating to minerals
produced from most Federal and Indian lands. Specifically, the Service collects about
$4.4 billion annually in rents, royalties, and other payments; maintains necessary accounting
records; prepares royalty liability determinations; and conducts audits of royalty payments to
ensure that royalties received represent fair and equitable value. To help accomplish its
responsibilities, the Service has established financial and production accounting verification
systems, compliance and enforcement programs, and an overall audit strategy.
The Audit Divisions are responsible for conducting audits of royalty payors to ensure that the
correct amount of royalties is reported and received. The Divisions are guided by a 5-year
audit strategy and an audit plan that is updated annually. The strategy provides for a wide
range of audits that cover specific companies and special issues or projects such as processing
allowances pertaining to gas plants, production allocations specified by unit agreements,
contract settlements, and royalty payments made from individual Indian leases. These audits
are performed by residency teams permanently stationed at the 11 largest royalty payor
companies (see Appendix 1) and by mobile teams that visit smaller companies selected for
review.

The Audit Divisions consist of a headquarters office in Washington, D.C., and compliance
divisions located in Lakewood, Colorado, and Dallas and Houston, Texas. The Dallas
Compliance Division also has compliance ofices located in Oklahoma City and Tulsa,
Oklahoma. The Audit Divisions have a total of approximately 190 auditors.

OBJECTIVE AND SCOPE

The objective of our review was to provide reasonable assurance that audit work of the Audit
Divisions was performed in accordance with the “Government Auditing Standards” and with
policies and procedures contained in the Service’s Audit Procedures Manual.’ To accomplish
the objective, we judgmentally selected for review 19 audits, consisting of 6 audits each from
the Lakewood and the Houston Compliance Divisions and 7 audits from the Dallas
Compliance Division. The sample for the Dallas Compliance Division included two audits
from the Oklahoma City Compliance Office and one audit from the Tulsa Compliance Office.
Our sample was taken from summary lists prepared by the Service and reportedly represented
all audits performed by the Service for the October 1,1995, through May 1, 1997 period (see
Appendix 2). Our review did not include any other work performed by the Audit Divisions
during this time period and did not evaluate the economy or efficiency of the Audit Divisions
operations. In addition, we did not evaluate the adequacy of the Audit Divisions overall audit
strategy. The audits reviewed represented a cross section of audit activities, audit teams, and
supervisory oficials. We examined audit reports and other audit report products such as
issue letters (formal notifications of royalty underpayments), orders to perform (demands for
companies to recompute additional royalties owed), orders to pay additional royalties, and
audit closure letters; the supporting working paper files; and employee training records.

The review was performed at the Service’s Royalty Management Program offices in
Lakewood and at Compliance Division offices in Lakewood, Dallas, and Houston. We also
visited the Service’s audit residency offices located at Chevron Oil Company in Concord,
California, and Texaco, Incorporated, in Houston. Our review was made in accordance with


‘The Audit Procedures Manual, dated December 1, 1989, was applicable to the audits that we examined for this
external quality control review.

                                                     2
the discussion drawl titled “Guide for Conducting External Quality Control Reviews of the
Audit Operations of Offices of Inspector General, ‘I2dated December 1996, and issued by the
President’s Council on Integrity and EfIiciency.3 This draft discussion guide provides the
standards and detailed guidance for conducting external quality control reviews required by
the quality control standard in the “Government Auditing Standards.”

PRIOR REVIEW

The last external quality control review of the Audit Divisions was conducted by the Office
of Inspector General in February and March 1991. The resultant May 199 1 report concluded
that, with only minor weaknesses in the areas of individual job planning, legal and regulatory
requirements, internal controls, audit evidence, supervision, and reporting, the Royalty
Compliance Division (which became the Audit Divisions in a 1992 reorganization) was in
compliance with the “Government Auditing Standards.”               The report contained no
recommendations.

During our current review, we noted that the Service was not timely with its request for an
external quality control review, as the prior review was completed about 5 years before the
Service requested the current review. Accordingly, we believe that the Service should ensure
that it complies with the requirement (Paragraph 3.33) of the “Government Auditing
Standards” by undergoing an external quality control review at least once every 3 years.

                                           DISCUSSION
Based on our review of the 19 audits, we concluded that the audit work performed by the
Audit Divisions was generally in compliance with the “Government Auditing Standards” and
the Service’s Audit Procedures Manual. Specifically, the audits were conducted in a
professional manner; audit conclusions were adequately supported by the working papers;
and, with few exceptions, auditors were current in their continuing education requirements.
Although we found minor weaknesses in the areas of compliance with laws and regulations,
internal quality controls, audit supervision, timeliness of report products, and working paper
quality, we also found that the validity of each audit finding and conclusion was not adversely
affected, as described in the following paragraphs,




2During the entrance conference for the external quality control review, offkials representing the Minerals
Management Service and the Of& of Inspector General agreed that the review would be conducted using the draft
discussion guide.

%he President’s Council on Integrity and Efficiency was established by Executive Order in March 1981 to provide
leadership in Governmentwide efforts to reduce fraud, waste, and mismanagement in Federal programs.

                                                       3
Compliance With Laws and Regulations

The working paper files for the 19 audits that we reviewed did not indicate that the Service
had conducted a risk assessment to aid in detecting significant illegal acts. The “Government
Auditing Standards” (Paragraph 6.28) states that a risk assessment should be performed so
that specific audit procedures can be designed to provide reasonable assurance of detecting
sign&ant illegal acts. Because the royalty payment process for Federal and Indian mineral
leases is complex and frequently involves large monetary amounts, we believe that auditors
should be more cognizant of their responsibility to detect fraud and other illegal acts.

Internal Quality Controls

The Service established an internal quality control system, as required by the “Government
Auditing Standards” (Paragraph 3.3 1), which we believe provided reasonable assurance that
the Service’s Audit Procedures h$nual was complied with and that audits were generally
conducted in accordance with the “Government Auditing Standards.” However, we also
concluded that the system could be strengthened as follows:

    - Internal Quality Control Review Program. We found that the internal quality control
review program which the Service initiated in 1996 generally operated efficiently and
effectively. The program ensured that individual audit offices were evaluated on a regular and
uniform basis, the internal reviews were completed timely, weaknesses identified in the
internal review reports were balanced with noteworthy accomplishments of the offices, and
appropriate officials were briefed on the results of the internal reviews. However, as currently
designed, the internal quality control review program does not include tests for:

       -- Compliance with the general standards covering staff qualifications, independence,
and due professional care. The “Government Auditing Standards” (Paragraph 3.32) requires
that an internal quality control review program be designed to evaluate compliance with all
applicable standards. Accordingly, the scope of the program should be expanded to include
testing of the general standards.

       -- Determining whether a risk assessment for compliance with laws and regulations was
performed, as required by the fieldwork standards of the “Government Auditing Standards”
(Paragraph 6.28). Accordingly, the program should include this step to verify that the
auditors assessed the risks that significant illegal acts could occur and, as necessary, that the
auditors designed and performed procedures to provide reasonable assurance of detecting
significant illegal acts, as discussed in the prior section (“Compliance With Laws and
Regulations”).

   - Other Quality Control Matters. During our review, two issues that related to ensuring
the accuracy of report products were disclosed as follows:



                                                4
                                                                                                   .




       --  Five of the 19 audits reviewed did not have an independent verification of
computations.     Although neither the “Government Auditing Standards” nor the Audit
Procedures Manual specifically requires an independent verification, this procedure helps to
satisfjr the “Government Auditing Standards” requirement (Paragraph 7.50) that findings
should be presented accurately in reports.

       mm
          The Audit Divisions were considering a significant policy change concerning the
referencing process for final audit report products. Specifically, report referencing may
become an optional rather than a mandatory procedure. In our opinion, the referencing
process is an important tool that helps ensure the accuracy and overall quality of the report
product. Accordingly, we strongly encourage the Audit Divisions to reconsider this policy
change and to continue the existing requirements for report referencing.

Audit Supervision

We found that all audits were supervised but that the supervision was not always
accomplished in a timely manner. The “Government Auditing Standards” (Paragraph 6.64)
states that working papers should contain evidence of supervisory review of the work
performed.    Further, the Audit Procedures Manual (Section 7.6) requires supervisors to
review the working papers “after segments’ of the work are completed.” However, for 12
of the 19 audits, the supervisory review of many working papers ranged from 3 to more than
12 months after the documents had been prepared. Additionally, for 5 of the 12 audits, the
report product was issued, even though working papers had no indication that a supervisory
review had been performed. The “Government Auditing Standards” (Paragraphs 6.22 and
6.23) requires staffto be properly supervised. Timely supervision of the working papers will
reduce the risk that undetected errors or unsound conclusions could be included in the
Service’s report products.

Timeliness of Report Products

We found that report products for 2 of the 19 audits could have been issued more timely.
Specifically, two orders to pay additional royalties relating to an audit of an oil company were
issued at least 6 months after the draft orders had been prepared, and an order to pay
additional royalties relating to the audit of a second oil company was issued about 2 years
after the underpayments          were identified. The “Government Auditing Standards”
(Paragraph 7.6) states that reports should be issued “to make the information available for
timely use. ”

Working Paper Quality

The supporting audit working papers were generally prepared in accordance with the Audit
Procedures Manual (Section 7). However, some of the working papers and files for 13 of the
19 audits did not have one or more of the following items: the required source, purpose, and
conclusion; a table of contents; indexing (specifically, page numbers); adequate cross-indexing


4A segment is a series of audit steps focusing on a specific area of the audit.

                                                          5
                                                                                                .




to the supporting working papers; the preparer’s name; and a heading describing the working
paper contents. Also, some records were not permanently attached to the files. In our
opinion, these deficiencies did not adversely impact the overall quality of the audit working
papers. However, we believe that the quality of working papers could be improved with more
timely supervisory reviews.

A response to this report is not required. However, if you have any questions regarding this
report, please call Mr. Alan Klein, Director of Performance Audits, at (303) 236-9243.

We appreciate the assistance of Minerals Management Service officials in the conduct of our
review.




                                             6
                                                               .




                                                  APPENDIX 1

                     AUDIT RESIDENCY OFFICES
                  MINERALS MANAGEMENT SERVICE




        Office Location            Company Name

Dallas Compliance Division
  Dallas, Texas                        Mobil

  Dallas, Texas                        ARC0

  Ponca City, Oklahoma                 Conoco

  Tulsa, Oklahoma                      Amoco

  Bartlesville, Oklahoma               Phillips


Houston Compliance Division
  Houston, Texas                       Exxon

  Houston, Texas                       Shell

  Houston, Texas                       Texaco

  Houston. Texas                       Unocal


Lakewood Compliance Division
  Concord, California                  Chevron

  Findlay, Ohio                        Marathon




                               7
                                                                                                                         .




                                                                                                      APPENDIX 2
                                                                                                        Page 1 of 2

                                    AUDIT SAMPLE SELECTION


            Office                    Company                                Case
           Location                     Name                                 Number                       Tvpe of Audit

           Dallas Compliance Division

             Dallas                       ARC0                               934000 1                     Residency*
             Dallas                       Thriftway                          5-40222                      Company**
             Dallas                       Sunwest Petroleum                  9540229                      Special issue***
             Dallas                       Meridian                           9240205                      Special issue
             Oklahoma City                Jenex Petroleum                    9665511                      Special issue
             Oklahoma City                Merrico                            6-65507.000                  Company
                                          (TriPower Resources)                through ,006
             Tulsa                        Yates                              5-40215.005,                 Special issues
                                                                             .Oll, and .014


           Houston Compliance Division

             Houston                      Badger Oil                         9520008                      Company
                                                                                                          and special issue
             Houston                      CNG Producing                      932008 1                     Special issue
             Houston                      Enron Oil & Gas                    8820055                      Special issue
             Houston                      UMC Petroleum                      942003 0                     Special issue
             Houston                      Shell                              2-22708.017                  Residency
                                                                              and .022
             Houston                      Texaco                             3-20069                      Residency




*Residency audits are comprehensive royalty reviews of the 11 largest royalty payor companies that are conducted by audit
staff stationed at the companies (see Appendix 1).

**Company audits are comprehensive royalty reviews of the next largest 115 royalty payors, as well as randomly selected
smaller companies, that are conducted by mobile audit teams.

***Special issues cover a variety of royalty verification activities, including audits of gas processing plants, the companies’
royalty accounting systems, lease inspections performed by the Bureau of Land Management, individual leases, contract
settlements, and royalty settlements. These audits are conducted by mobile audit teams.




                                                               8
                                                                        .




                                                        APPENDIX 2
                                                          Page 2 of 2




 Office          Company                  Case
Location           Name                   Number           Type of Audit

Lakewood Compliance Division

Lakewood         Chevron                  3-30001.033      Residency
                                          6-30503.000
                                          6-30501.022
                                          5-30238.000
Lakewood         Axem Resources           3-30094          Special issue
Lakewood         Energy Minerals          4-30057          Special issue
Lakewood         Questar                  3-30004          Company
Lakewood         Mayo Foundation          5-30212          Company
Lakewood         Pan Canadian Petroleum   5-30206          Special issue
                                                                                          .




                     ILLEGAL OR WASTEFUL ACTMTIES
                         SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL BY:


~   Sending written documents     to:                                 cidling:


                         Within the Continental United States

    U.S. Department of the Interior                            Our 24-hour
    Office of Inspector General                                Telephone HOTLlNE
    1849 C Street, N.W.                                        l-800-424-5081 or
    Mail Stop 5341                                             (202) 208-5300
    Washington, D.C. 20240


                                                               TDD for hearing impaired
                                                               (202) 208-2420 or
                                                               l-800-354-0996


                        Outside the Continental United States


                                         Caribbean   Region

    U.S. Department of the Interior                            (703) 235-9221
    Office of Inspector General
    Eastern Division - Investigations
    1550 Wilson Boulevard
    Suite 410
    Arlington, Virginia 22209


                                        North Pacific Reeion

    U.S. Department of the Interior                            (700) 550-7428 or
    Office of Inspector General                                COMM g-011-671-472-7279
    North Pacific Region
    238 Archbishop F.C. Flares Street
    Suite 807, PDN Building
    Agana, Guam 96910
            -
        :       Toll Free Numbers:
        :        l-800-424-5081
        :
                 TDD l-800-354-0996        E
        :                                  5
        :
        .
                                           5
        :
                FE/Commercial   Numbers:
                 (202) 208-5300
        :        TDD (202) 208-2420        E
        :
                                           E


.
    :
    m
        :

        :        HOTLINE ;-
    :
                1849 C Street, N.W.

    :

    :

    :

    :

    :
    .

    :
    :
    a

    :

    :
    a
      -
